No. 20-255

 

 

In THE
Supreme Court of the Anited States

MAHANOY AREA SCHOOL DISTRICT,
PETITIONER

v.
B.L., AMINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY AND HER MOTHER BETTY

LOU LEVY,
RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR VANHO LAW AS AMICUS CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,156 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
